February 18, 2020
VIA ELECTRONIC FILING AND FEDERAL EXPRESS
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Devon Drive Lionville, LP, et al. v. Parke Bank, et al.,
No. 19-901

Dear Mr. Harris:
I represent respondents Parke Bank, Vito Pantilione and Ralph Gallo in the
above-referenced case. Pursuant to Supreme Court Rule 30.4, kindly accept this
letter as respondents’ motion to extend the time to file a brief in opposition to the
petition for writ of certiorari. I am respectfully requesting an extension of 21 days,
to and including Thursday, March 12, 2020, to file the brief. Absent an extension,
the brief would be due on February 20, 2020. This is the first extension respondents
have sought. Petitioners’ counsel do not oppose the extension.
By way of explanation, in early February I suffered a full-thickness
supraspinatus (rotator cuff) tear in my dominant-hand shoulder, necessitating a not
insubstantial amount of interaction with the medical community to diagnose the
injury and schedule surgery. This has impacted my productivity at the office, and I
find that I will need more time to complete the research and writing necessary to
support a fully-developed brief in opposition to the petition. Additionally, my
partner and co-counsel in this case, David L. Braverman, has been away for the
better part of two weeks on a pre-planned family vacation.
I thank you for your time and attention to the foregoing.
Respectfully submitted,
PETER J. LEYH
cc:

Robert Toland II, Esq. (by email)
Kevin F. Berry, Esq. (by email)

